CERTIFICATE OF SERVICE
Case Name: Lyle Coultas v. Carroll Tichenor, et al
United Stated Supreme Court Case No.: Not vet assigned
I certify that a copy of Petitioner's Petition for Writ of Certiorari was served by First Class
Mail, postage prepaid, certified return receipt, on the Date below to Attorney Andrew Hallman
(Assistant Attorney General for the Oregon Department of Justice), the Clerk of the United States Ninth
Circuit Court of Appeals, Clerk of the United States Supreme Court, clerk for the United States District
Court for Portland, Oregon.

A.
Signature
Name / Address

Andrew Hallman
Department of Justice
1162 Court Street NE
Salem, Oregon 97301-4791
Clerk, United States Court of Appeals
For the Ninth Circuit Court
P.O. Box 193939
San Francisco, CA 94119-3939
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
Mark 0. Hatfield U.S. Courthouse
Office of the Clerk
1000 SW Third Ave.
Portland, Oregon 97204

Cc. File

DATE SERVED

/ . October 29,2020.
Date
October 29, 2020

